         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Evaluation Report




       Office of Inspector General
       Access to Agency Information
       and Personnel

       Report No. 09-P-0222

       August 25, 2009
Report Contributors:                    Rae Donaldson
                                        Dwayne E. Crawford
                                        Eric Lewis
                                        Elizabeth Grossman
                                        Maria Martir




Abbreviations

EPA          U.S. Environmental Protection Agency
OECA         Office of Enforcement and Compliance Assurance
OIG          Office of Inspector General
                       U.S. Environmental Protection Agency                                                09-P-0222
                                                                                                      August 25, 2009
                       Office of Inspector General


                       At a Glance
                                                                           Catalyst for Improving the Environment


Why We Did This Review            Office of Inspector General Access to
                                  Agency Information and Personnel
We analyzed internal guidance
used by the U.S. Environmental     What We Found
Protection Agency (EPA)
program and regional offices
for interacting with the Office   At the time of our review, EPA did not have consistent overall guidance
of Inspector General (OIG) to     governing interaction with the OIG. Consequently, some EPA program and
determine whether the guidance    regional offices promulgated internal guidance that impeded OIG access to
was (1) applied consistently      Agency information and personnel. These internal guidances included
Agency-wide, or (2) included      procedures with burdensome administrative requirements that allowed EPA
procedures that included          managers to screen and potentially change information prior to issuing the
burdensome administrative         information to the OIG. Others required personnel to seek supervisory guidance
requirements or allowed           before responding to OIG inquiries.
screening of information prior
to issuance to the OIG.
                                  Our Agency-wide survey found that EPA employees had a significant lack of
Background                        knowledge about interacting with the OIG. Eighty-three percent of respondents
                                  either were not aware or did not know of any guidance or procedures governing
The Office of Enforcement and     interaction with the OIG. Fourteen percent of the respondents believed they may
Compliance Assurance              face retribution if they provided information or documents to the OIG without
instructed its managers not to    permission from a supervisor. An additional 31 percent did not know whether
provide information directly to   they would face retribution if they provided documents or information to the OIG
the OIG. However, the             without permission.
Inspector General Act of 1978
authorizes federal inspectors      Corrective Actions Taken
general to assess information
and personnel relative to         We recommended that the Deputy Administrator issue guidance to all EPA
program operations of federal
agencies. EPA’s own policy        program and regional offices on interacting with the OIG to ensure unfettered
also endorses OIG access to       access to information and personnel; and that all lower level guidance, written or
personnel and timely              unwritten, be revoked. In response, the EPA Administrator issued prescriptive
information.                      guidance on August 7, 2009, to address these issues. The guidance instructed
                                  EPA personnel to provide OIG auditors, evaluators, and investigators with full
                                  and unrestricted access to personnel, facilities, records, or other information or
For further information,          material needed by the OIG to accomplish its mission. The EPA Administrator
contact our Office of             defined unrestricted access to mean that managers and staff are not to impose
Congressional, Public Affairs
and Management at
                                  burdensome administrative requirements or screening procedures that could
(202) 566-2391.                   impede OIG access to needed employees and materials. The EPA Administrator
                                  instructed all EPA offices to review their policies and procedures related to
To view the full report,          interaction with the OIG and conform to her guidance by September 4, 2009. The
click on the following link:      OIG believes the actions taken by the Administrator to be sufficient to address the
www.epa.gov/oig/reports/2009/
20090825-09-P-0222.pdf            draft recommendation. Since the actions were taken prior to issuance of our final
                                  report, no further action is necessary.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                         August 25, 2009

MEMORANDUM

SUBJECT:       Office of Inspector General Access to Agency Information and Personnel
               Report No. 09-P-0222


FROM:          Wade T. Najjum
               Assistant Inspector General for Program Evaluation
               Office of Inspector General

TO:            Scott Fulton
               Acting Deputy Administrator
               Office of the Administrator


This is the final report of the Office of Inspector General (OIG) of the U.S. Environmental
Protection Agency (EPA) evaluation of guidance and procedures governing OIG access to
personnel, records, and other information. This report represents the opinion of the OIG and
does not necessarily represent the final EPA position. In our draft report issued on June 30,
2009, the OIG recommended that EPA’s Office of the Administrator issue overall Agency
guidance governing interaction with the OIG during the performance of our reviews to ensure
unfettered access to information and personnel; and that all lower level guidance, written or
unwritten, be revoked. In response, the EPA Administrator issued a memorandum on August 7,
2009. The OIG has determined the actions taken by the Office of the Administrator to be
sufficient to address issues raised during our review. Accordingly, we have made necessary
changes in this report where appropriate. We have included the EPA Administrator’s
memorandum as Appendix A. Further, since the action taken by the Agency was prior to
issuance of this final report, no further action is necessary.

The estimated cost of this project – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $199,469.

We have no objection to the further release of this report to the public. This report will be
available at http://www.epa.gov/oig. Should you have any questions, please contact Eric Lewis,
Director, Special Reviews, at 202-566-2664 or lewis.eric@epa.gov.
Office of Inspector General Access to                                                                                        09-P-0222
Agency Information and Personnel



                                     Table of Contents

Chapters
   1       Introduction ...........................................................................................................      1

                   Purpose … .....................................................................................................       1
                   Background ....................................................................................................       1
                   Scope and Methodology.................................................................................                2

   2    EPA Lacked Consistent Guidance for Interacting with the OIG ..........................                                           4

                   Analysis of Program and Regional Offices’ Guidance....................................                                4
                   Agency-wide Survey on Employee Interaction with the OIG .........................                                     6
                   Conclusions....................................................................................................       7
                   Corrective Actions Taken ...............................................................................              8

   Status of Corrective Actions Taken .............................................................................                      9



Appendices
   A EPA Administrator’s Memorandum on Cooperation with the OIG .....................                                                 10

   B Distribution ...............................................................................................................     13
                                                                                               09-P-0222




                                            Chapter 1
                                             Introduction
Purpose
                    We performed an Agency-wide evaluation of the U.S. Environmental Protection
                    Agency’s (EPA’s) guidance and procedures governing Office of Inspector
                    General (OIG) access to personnel, records, and other information.1 We initiated
                    the evaluation after news organizations reported in July 2008 that EPA’s Office of
                    Enforcement and Compliance Assurance (OECA) had formally instructed
                    members of the staff not to talk with the OIG without senior management
                    approval. Our objectives were to determine whether:

                         •    EPA had guidance and procedures for interaction with the OIG that was
                              implemented consistently Agency-wide, or applied in an ad-hoc manner;
                              and

                         •    Established guidance and procedures in any way required burdensome
                              administrative requirements, or allowed screening of information prior to
                              submission to the OIG.

Background
                    OIGs were created to conduct and supervise audits and investigations relating to
                    the programs and operations of the Federal Government to provide a means for
                    keeping the heads of federal agencies and Congress fully current and informed
                    about problems and deficiencies relating to the administration of such programs
                    and operations, and the necessity for and progress of correction action. To help
                    ensure this accountability, Congress passed the Inspector General Act of 1978.
                    Section VI of the Act provides each Inspector General with the following
                    authorizations:

                         •    To have access to all records, reports, audits, reviews, documents, papers,
                              recommendations, or other material available to the applicable
                              establishment which relate to programs and operations with respect to
                              which that Inspector General has responsibilities under this Act (Section
                              6(a)(1)).

                         •    Whenever information or assistance requested under the above section is,
                              in the judgment of an Inspector General, unreasonably refused or not
                              provided, the Inspector General shall report the circumstances to the head
                              of the establishment involved without delay (Section 6(b)(2)).

1
    Hereinafter referred to as reviews.


                                                        1
                                                                                  09-P-0222




         Government Auditing Standards (July 2007 Revision) require that:

            •   Statutorily appointed federal inspectors general comply with generally
                accepted government auditing standards in conformity with the Inspector
                General Act of 1978 for audits of federal establishments, organizations,
                programs, activities, and functions.

            •   Government managers provide reliable, useful, and timely information for
                accountability of government programs and operations.

            •   Auditors must obtain sufficient and appropriate evidence to provide a
                reasonable basis for findings and conclusions. The evidence should
                persuade a knowledgeable person that the findings are reasonable.

         EPA Manual 2750 notes the OIG is authorized access to all records, reports,
         documents, etc., under the Inspector General Act. Further, the Manual states:

                …to fulfill its responsibilities, the OIG needs the cooperation of
                Agency personnel to make full disclosure of information pertaining
                to instances of waste, fraud and abuse. EPA fully supports the
                audit management function and endorses the fullest cooperation of
                all Agency personnel during the entire audit management process.
                All EPA personnel will disclose and provide pertinent information
                to auditors.

Scope and Methodology
         We conducted our review in accordance with generally accepted government
         auditing standards. Those standards require that we adequately plan for the audit;
         properly supervise audit staff; obtain sufficient, appropriate evidence to provide a
         reasonable basis for our findings and conclusions; and prepare audit
         documentation related to the planning, conducting, and reporting for each audit.
         We believe that the evidence obtained provides a reasonable basis for our findings
         and conclusions based on our review objectives.

         We conducted our review from July 2008 through June 2009, during which time
         we requested and analyzed internal guidance, instructions, and procedures used by
         EPA program and regional offices to govern interaction with the OIG. We also
         conducted an Agency-wide survey to assess the level of free interaction EPA
         employees, contractors and others perceive they have with the OIG.




                                          2
                                                                                                   09-P-0222


                 To achieve our audit objectives, we contacted the Agency’s audit follow-up
                 coordinators for EPA’s 10 major program offices2 and 10 regional offices to
                 obtain the guidance used by their respective offices for interacting with the OIG.
                 Where we were able to obtain documentation, we analyzed the documents to
                 determine whether the requirements were implemented consistently Agency-wide,
                 or included procedures that required burdensome administrative requirements or
                 allowed screening of information prior to issuance to the OIG.

                 As a part of our overall evaluation, we also sponsored an Agency-wide survey
                 from December 15-19, 2008, using the Agency’s mass-mailer system. The survey
                 asked EPA employees and others with an EPA e-mail address questions about
                 their knowledge and understanding of existing policies and procedures in their
                 programs governing interaction with the OIG. We also asked questions about the
                 management control environment. We received responses from 1,019 EPA
                 employees and 31 others.

                 In January 2009, we issued an interim report3 to the former EPA Deputy
                 Administrator on the results of our survey. In this report, we informed the former
                 Deputy Administrator that the OIG had not completed its analysis of the results or
                 drawn any final conclusions in the interim report. Rather we provided the interim
                 results for information purposes given the survey indicated potentially significant
                 problems.




2
  EPA’s 10 major programs offices are the Office of the Administrator; Office of Administration and Resources
Management; Office of Air and Radiation; Office of the Chief Financial Officer; Office of Enforcement and
Compliance Assurance; Office of Environmental Information; Office of Prevention, Pesticides, and Toxic
Substances; Office of Research and Development; Office of Solid Waste and Emergency Response; and Office of
Water.
3
  Interim Report “Office of Inspector General Access Survey Results, “Report No. 09-P-0079, January 13, 2009.



                                                       3
                                                                                                    09-P-0222




                                           Chapter 2
                  EPA Lacked Consistent Guidance for
                       Interacting with the OIG
                 At the time of our review, EPA did not have consistent overall guidance
                 governing interaction with the OIG. Consequently, some EPA program and
                 regional offices promulgated internal guidance that impeded OIG access to
                 information and personnel. These internal guidance documents added procedures
                 with burdensome administrative requirements, such as allowing EPA managers to
                 screen and potentially change information prior to issuing to the OIG. They also
                 allowed employees to sometimes withhold information or refuse to talk to the
                 OIG. These internal procedures were determined to have limited or delayed OIG
                 access to information and personnel, as authorized by the Inspector General Act
                 and EPA Order 2750.4

                 We also found that over 80 percent of Agency employees responding to our
                 Agency-wide survey were unaware of EPA program office or regional office
                 policies or guidance on how to interact with the OIG. More troubling, 14 percent
                 of the respondents believed they may face retribution if they provided information
                 or documents to the OIG without permission from a supervisor. An additional
                 31 percent did not know whether they would face retribution if they provided
                 documents or information to OIG without permission. We believe these results
                 reflected the need for overall guidance on interacting with the OIG to avoid
                 confusion regarding the roles of the OIG in terms of its audit and investigative
                 functions.

Analysis of Program and Regional Offices’ Guidance
                 The OIG is statutorily authorized access to Agency information on programs and
                 operations, and its personnel, under the Inspector General Act. This information
                 is necessary to gather sufficient and appropriate evidence to provide a reasonable
                 basis for findings and conclusions. Generally accepted government auditing
                 standards require that OIG personnel maintain professional skepticism and verify
                 information provided. Regardless of the good intentions involved, OIG cannot
                 accept a process that allows management to screen or alter information from a
                 source. The OIG agrees to reasonable coordination with the Agency to avoid
                 unnecessary disruptions, and the OIG may seek audit liaison assistance in
                 identifying qualified personnel to interview. However, once the OIG is satisfied
                 that qualified employees have been identified, the Agency should not be allowed
                 the opportunity to screen answers intended for the OIG.

4
 Inspector General Act of 1978, Sections 6(a)(1), 6(b)(1); EPA Manual 2750, Chapter 1, Section 3 – “Scope and
Applicability,” 12/03/1998.


                                                       4
                                                                         09-P-0222


EPA program and regional offices use audit follow-up coordinators, audit
management officials, audit management coordinators, audit liaisons, or other
designated officials to manage communications with the OIG during a review.
Typically, these officials try to ensure that the OIG reviewers get access to the
personnel and information needed to complete the review. However, on occasion,
these officials can be impediments to the review. For example:

   •   These coordinators/officials request or are required to serve as a point of
       contact for data or access to personnel. This practice is not always feasible
       in situations when management should not know the exact nature of the
       request, creating the potential for changing data or influencing statements
       from qualified staff. When the OIG needs the services of the audit liaisons
       to help identify qualified Agency personnel for obtaining needed
       information, the OIG will make that request for assistance and set up a
       mechanism to keep management informed about the review to the extent
       practicable.

   •   Audit follow-up and management coordinators screen or are required to
       screen information before they deliver it to the OIG. When this occurs,
       there is the possibility that management could change the data. Depending
       on the materiality of the data, this requires the OIG to perform additional
       steps to validate the data.

   •   Some agency staff perceived that audit liaisons, along with supervisors,
       managers, or other Agency representatives, are required to be present
       when they are interviewed by the OIG. This could intimidate qualified
       staff to present only management’s side of the issue.

We contacted EPA audit follow-up coordinators to determine and document the
internal policies and procedures used by the Agency’s program offices and
regional offices governing interaction with the OIG. Our intent was to determine
whether EPA had overarching guidance in conformity with the Inspector General
Act and Government Auditing Standards, and implemented that guidance in a
consistent manner. Specifically, we wanted to determine whether the guidance
included burdensome administrative requirements or allowed the potential for
EPA managers to screen or withhold information from the OIG.

Eleven of 20 Offices Rely on EPA Manual 2750

Four of 10 program offices and 7 of 10 regional offices told us they rely on EPA
Manual 2750 as guidance for interacting with the OIG. The purpose of EPA
Manual 2750 is to implement the reporting requirements of the Inspector General
Act. Its objectives are to detail processes by which EPA officials respond to OIG
reports; OIG and EPA officials resolve audit report findings and
recommendations; and EPA officials implement follow-up corrective actions.
The Manual does instruct EPA personnel that during an OIG review they must


                                 5
                                                                             09-P-0222


     disclose and provide pertinent information to auditors in a timely manner.
     However, the Manual does not indicate whether personnel need permission to
     speak with the OIG or whether EPA management can review or edit information
     to be provided to the OIG.

     Nine Offices Developed Guidance Independent of EPA Manual 2750

     EPA Manual 2750 encourages the development of internal guidance by EPA
     offices if they need to develop and maintain office-specific operating procedures
     and controls that promote timely and effective audit resolution. The remaining
     major offices reported that they had developed their own guidance on
     communicating with the OIG.

     Program Offices’ Written Guidance. Six of the 10 program offices had
     developed internal written guidance governing interaction with the OIG. Of these
     six, internal guidance included procedures that conflict with statutory requirements
     under the Inspectors General Act or Agency policy regarding the OIG’s access to
     information and personnel. These procedures restrict OIG access through
     burdensome administrative requirements and/or create a situation that allows
     Agency managers opportunities to screen information prior to issuing to the OIG.

     Regions’ Written Guidance. Two EPA regions have written internal guidance
     for interacting with the OIG. One region’s guidance sets forth the roles and
     responsibilities during all phases of the audit process, and requires full
     cooperation with the OIG throughout the process. The other region’s guidance,
     based in part on EPA Manual 2750, encourages an open channel of
     communication but requires that a point-of-contact or an alternate collect and
     provide information (documents and/or files) to the OIG.

     A third region did not have written policy or guidance on coordination with the
     OIG. Rather, the region relies on an unwritten standard operating procedure that
     requires the region to cooperate with the OIG in accordance with the Inspector
     General’s Project Management Handbook. The region expects that requests
     concerning audits and evaluations be made through appropriate management
     channels so that management is aware of developments. Though unwritten, the
     guidance provides management the opportunity to screen information and control
     access to qualified personnel.

Agency-wide Survey on Employee Interaction with the OIG
     We conducted an Agency-wide survey of EPA employees and others with an EPA
     e-mail address to determine their knowledge and understanding of existing
     guidance and procedures in their programs governing interaction with the OIG.

     Our survey results found that Agency personnel had a significant lack of
     knowledge regarding interaction with the OIG. Of 1,050 respondents, 83 percent


                                      6
                                                                                   09-P-0222


         either were not aware or did not know of any guidance or procedures governing
         interaction with the OIG. Several survey respondents also expressed the need for
         training on what an employee or contractor can or cannot do relative to interaction
         with the OIG.

         There were also some troubling perceptions among the Agency staff about
         management’s attitudes toward staff who provided documentation or talked to
         OIG staff without permission. Of the 1,050 respondents:

              •   Eighteen percent did not believe that they can provide documentation or
                  written responses to the OIG without permission from a supervisor. An
                  additional 34 percent said they did not know.

              •   Fourteen percent believed they may face retribution if they provide
                  information or documents to the OIG without permission from a
                  supervisor. An additional 31 percent did not know whether they will face
                  retribution if they provide documents or information to the OIG without
                  permission.

              •   Fourteen percent believed they may face retribution if they talk to the OIG
                  without permission from a supervisor. An additional 29 percent did not
                  know whether they will face retribution if they talk to the OIG without
                  permission.

         The OIG acknowledges that comments it received in response to these particular
         questions do not represent the majority. In fact, a majority of the respondents
         expressed management’s willingness to allow their interaction with the OIG
         without fear of retribution, as long as the respondents informed management that
         they were providing the information. However, we believe these results tend to
         correspond with procedures under some program offices’ internal guidance that
         can directly influence staff interaction with the OIG. Uncorrected, these practices
         could call into question the reliability of information obtained from the Agency
         and could have required OIG reports to include impairment statements or scope
         limitations.

Conclusions
         At the time of our review, EPA components had not implemented consistent
         guidance across all offices regarding interaction with the OIG. This resulted in a
         lack of understanding of proper roles and responsibilities dealing with statutory
         oversight organizations. Some EPA program and regional offices developed
         faulty internal guidance. Evidence obtained from staff loses its reliability when
         management screens or has the opportunity to alter data during a multi-level
         review process. Management attempts to keep information from auditors
         increases the time and costs of an audit, and reduces the reliability of information.



                                           7
                                                                                  09-P-0222


          Survey results underscored the need for an overarching guidance governing
          interaction with the OIG and the need for training in this area.

Corrective Actions Taken
          We recommended that the Deputy Administrator issue guidance to all EPA
          program and regional offices on interacting with the OIG to ensure unfettered
          access to information and personnel; and that all lower level guidance, written or
          unwritten, be revoked. In response, the EPA Administrator issued an Agency-
          wide memorandum on August 7, 2009, that instituted overall Agency guidance
          governing interaction with the OIG. The purpose of the memorandum was to
          ensure that EPA managers and staff understand the role of the Agency’s OIG and
          to address how the EPA Administrator expected Agency programs and personnel
          to interact with the OIG. The OIG has determined that the actions taken by the
          Office of the Administrator address the issues raised during our review.
          Accordingly, we have made necessary changes in this report where appropriate.
          Since the Agency actions were taken prior to issuance of our final report, no
          further action is necessary.

          We have included the EPA Administrator’s memorandum as Appendix A




                                           8
                                                                                                                                  09-P-0222




                          Status of Corrective Actions Taken

                                                                                                                        POTENTIAL MONETARY
                                              RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                            Planned
Rec.   Page                                                                                                Completion   Claimed     Agreed To
No.     No.                         Subject                           Status1         Action Official         Date      Amount       Amount

              Issue overall guidance to all EPA program and             C              Administrator        8/7/2009
              regional offices on interacting with the OIG to
              ensure the OIG has timely and unfettered access
              to information and personnel during the
              performance of OIG reviews on EPA programs and
              operations.

              Revoke all lower level guidance pertaining to             C           Deputy Administrator    8/7/2009
              interaction with the OIG, both written and unwritten,
              and do not allow lower level supplementation of the
              new guidance to be issued.




                    1     O = recommendation is open with agreed-to corrective actions pending
                          C = recommendation is closed with all agreed-to actions completed
                          U = recommendation is undecided with resolution efforts in progress




                                                                                9
                                                                                        09-P-0222


                                                                               Appendix A

                EPA Administrator’s Memorandum on
                     Cooperation with the OIG

MEMORANDUM

SUBJECT:       Cooperation with the Office of Inspector General

FROM:          Administrator Lisa P. Jackson

TO:            All EPA Employees

        As I recently observed in my memorandum on Transparency in the U.S. Environmental
Protection Agency’s Operations, “[t]he success of our environmental efforts depends on earning
and maintaining the trust of the public we serve.” One of the key means by which we ensure the
kind of accountability deserving of public trust is the process of internal review and oversight
carried out by our Office of Inspector General. The purpose of this memorandum is to ensure that
EPA managers and staff understand the role of the Agency’s OIG and to address how I expect
Agency programs and personnel to interact with the OIG.

         The OIG is to serve as an independent and objective unit within our Agency, playing an
important role in preventing and rooting out fraud, waste, mismanagement and abuse in Agency
programs and operations. The OIG also endeavors to improve the efficiency of our Agency
programs and operations through the performance of audits, evaluations and inspections. To carry
out its statutorily required function, the OIG necessarily requires, on a regular basis, information
and assistance from EPA managers and staff.

        There is sometimes confusion regarding the roles and responsibilities of the OIG and the
Government Accountability Office. While the functions of the OIG and GAO are similar in some
respects, the two are in different branches of government and have different authorities and
responsibilities. The OIG’s primary function is to serve as an accountability and oversight
mechanism within and for the benefit of the Executive Branch of government, in compliance with
the Inspector General Act of 1978, as amended. GAO is the investigative arm of the United States
Congress; this memorandum does not address directly the Agency’s interaction with the GAO.

        It is imperative that, upon request, Agency personnel provide OIG auditors, evaluators and
investigators with full and unrestricted access to personnel, facilities, records (including, but not
limited to, reports, databases and documents), or other information or material that is needed by
the OIG to accomplish its mission. Unrestricted access means that managers and staff are not to
impose burdensome administrative requirements or screening procedures that could impede OIG
access to needed employees and materials. Management should not attempt to control or influence
the free flow of information to and from the OIG or to frustrate the full and unfettered exchange
between EPA personnel and the OIG during the active phase of audits.



                                                 10
                                                                                       09-P-0222


       My expectation is that we will cooperate with the OIG as follows:

       1.     Managers and staff are to expeditiously provide materials responsive to an OIG
       request;

       2.     Materials should be provided to the OIG in the manner requested, rather than routed
       through an intermediary for review prior to disclosure;

       3.      EPA managers and staff must not conceal information or obstruct OIG audits,
       investigations or other inquiries. Doing so is against EPA policy, and may be in violation
       of federal law;

       4.      At any time, the OIG may have access to available information such as policy,
       guidance, procedures or existing reports and other general information to focus its plans.
       In the context of specific OIG audits, evaluations or other reviews, the OIG will ordinarily
       issue a notification letter or kick-off memo to EPA management announcing the objectives
       of the OIG activity. Frequently, a meeting will be scheduled with EPA management and
       the OIG staff to discuss the activity. Under all circumstances, EPA managers and staff are
       to provide complete cooperation upon receipt of such notification; and

       5.      EPA staff are not required to obtain permission from or inform managers before
       they speak with OIG representatives during audits, evaluations, investigations or other OIG
       reviews. Staff may, at their own discretion, contact their manager with any questions
       regarding their responsibility to cooperate with the OIG or their scheduling of meetings
       with the OIG, unless, in the context of an investigation, they are instructed otherwise by
       OIG. In the context of investigations, managers should not question staff about their
       interactions with the OIG.

        The OIG, for its part, has indicated its intent to respect the multiple demands made upon
EPA managers and staff and, to the extent possible, to seek to accommodate scheduling difficulties
or other time constraints that managers and staffs might face. Also, the OIG is committed to
honoring requests for confidentiality to the extent permitted by the law and to handling all EPA
documents and information in an appropriate manner.

        To ensure that reports from audits, evaluations and other reviews (collectively referred to
here as “audits”) are fairly prepared and presented, the OIG staff will endeavor to provide
management with significant opportunities for interaction. To this end, an audit will ordinarily
begin with an entrance conference or kick-off meeting and will ordinarily conclude its active phase
with an exit conference. Management should attend both entrance and exit conferences and make
its views and concerns known. At any time during the course of the audit, EPA management may
request and meet with the OIG staff to discuss the audit, provide information to clarify
management assertions and discuss status and any concerns.

       The OIG intends to solicit EPA management for input regarding accuracy and tonal quality
frequently during the audit up to and including submission of comments to the written audit
product. This interaction should help to avoid misunderstandings. The OIG is committed to give



                                                11
                                                                                           09-P-0222


full consideration to management comments on discussion drafts and formal draft reports in the
course of finalizing reports. EPA managers should engage with OIG leadership when it believes
that its input is not satisfactorily addressed. In the end, formal Agency comments to the formal
draft will ordinarily be attached, in their entirety, to the final OIG report. This interactive process,
in which OIG engages management in the audited office in an effort to develop and refine findings
and recommendations, is a key part of the OIG process, and Agency managers need to see these
opportunities for interaction as their primary means of expression in the context of OIG audits.

       All offices are expected to review their policies and procedures related to interaction with
the OIG and must conform to this guidance; the offices must certify such conformity to the Deputy
Administrator by c.o.b. September 4, 2009.

        If you have any questions about this guidance or about an OIG request for information,
please contact the Principal Deputy General Counsel at (202) 564-0864 or the Associate Deputy
Inspector General and Counsel at (202) 566-0861.

Sincerely,
Lisa P. Jackson




                                                   12
                                                                                      09-P-0222




                                                                           Appendix A

                                      Distribution
Office of the Administrator
Acting Deputy Administrator
Assistant Administrator, Office of Administration and Resources Management
Assistant Administrator, Office of Air and Radiation
Assistant Administrator, Office of Enforcement of Compliance Assurance
Acting Assistant Administrator, Office of Environmental Information
Assistant Administrator, Office of Prevention, Pesticides and Toxic Substances
Acting Assistant Administrator, Office of Research and Development
Assistant Administrator, Office of Solid Waste and Emergency Response
Acting Assistant Administrator, Office of Water
Acting Chief Financial Officer
Acting Regional Administrators, Regions 1-10
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of Administration and Resources Management
Audit Follow-up Coordinator, Office of Air and Radiation
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Audit Follow-up Coordinator, Office of Enforcement of Compliance Assurance
Audit Follow-up Coordinator, Office of Environmental Information
Audit Follow-up Coordinator, Office of Prevention, Pesticides, and Toxic Substances
Audit Follow-up Coordinator, Office of Research and Development
Audit Follow-up Coordinator, Office of Solid Waste and Emergency Response
Audit Follow-up Coordinator, Office of Water
Audit Follow-up Coordinators, Regions 1-10
Acting Inspector General




                                               13
